IN THE SUPREME COURT OF THE UNITED STATES

BROOKS, MICHAEL T.
Petitioner
vs.

No:

20-8413

DEPARTMENT OF LABOR, ADMINISTRATIVE REVIEW
BOARD
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
July 22, 2021
cc:
MICHAEL T. BROOKS
32713 VINTAGE WAY
COBURG, OR 97408
RACHEL C. LEE
STOEL RIVES LLP
760 SW NINTH AVENUE
SUITE 3000
PORTLAND, OR 97205

